                                      u.s. DEPARTMENT OF EDUCATION
                                                  THE WANAMAKER BUILDING 

                                               100 PENN SQUARE EAST, SUITE 502 

                                                    PHILADELPHIA, PA 19107 




     OFFICE OF
INSPECTOR GENERAL

                                                                                                MAY      6 2003
     Mr. Eugene A. Brannock
     Executive Vice President - General Manager
     Information Services & Technology Group
     Aspen Systems Corporation
     2277 Research Boulevard
     Rockville, MD 20850

     Dear Mr. Brannock,

     This Final Audit Report (Control Number ED-OIG/A03-C0021) presents the results of
     our review of Aspen Systems Corporation's (Aspen) administration of the Education
     Publications (ED Pubs) contract (contract number ED-98-CO-0007) for the period March
     13, 1998, through June 30, 2002.

                                                      AUDIT RESULTS

     Our audit objective was to determine if the products and services provided and charged
     by Aspen for the ED Pubs contract were in accordance with the terms of the contract and
     applicable federal law and regulations. We concluded that they were, except for the
     weaknesses discussed below. These weaknesses include incorrect billings and
     unsupported charges billed to ED.

     A draft copy of this audit report was provided to Aspen. Aspen believes that the report
     fairly represents the results of the ED OIG audit. In addition, Aspen noted the corrective
     actions that they have implemented. A copy of Aspen's response is included as
     Attachment B to this audit report.

     FINDING No.         1- ASPEN INCORRECTLY HANDLED AMOUNTS ON 

                            Two INVOICES BILLED TO ED 


     Aspen erroneously overbilled ED for $3,760, because amounts, totaling $1,880,1 that
     should have been credited on two invoices for corporate storage and recycling were
     added to the invoice amounts. The March 29,2002, invoice (No.028082-VR0105)
     contained a credit amount of $844 for corporate storage that was added to the invoice
     amount. In addition, the May 31, 2002, invoice (No. 028524-VROI09) contained a credit
     amount of $1,035 for monies earned from recycling that was added to the invoice
     amount. During the period of our review, March 13, 1998, to June 30, 2002, Aspen

     1   Due to rounding of the amounts noted, there is a small deviation when the amounts are added together.



          "OUr Mission is to Ensure Equal Access to Education and to Promote Educational Excellence Throughout the Nation"
Mr. Eugene Brannock – Page 2	                                             ED-OIG/A03-C0021


submitted 114 invoices to ED, 37 of which contained credit amounts. The credit amounts
on the remaining 35 invoices were properly subtracted from each invoice’s balance due
amount.

When preparing the invoices, Aspen staff inadvertently added the credit amounts to the
invoices’ balance due amount. Contractors should review invoices for correctness prior
to submitting them to ED. After bringing the errors to Aspen’s attention, Aspen
corrected the erroneous charges on the August 21, 2002, invoice (No. 029286-VR0117).
As a result, recoveries have been made, totaling $3,760.

RECOMMENDATION :

1.1	       We recommend that ED’s Chief Financial Officer require Aspen to develop and
           implement procedures to ensure that all finalized invoices receive a second level
           of review prior to being issued to ED.

Aspen’s comments - Aspen noted that all ED Pubs invoices currently go through a 3­
tiered review process, that includes the ED Pubs Management Analyst, Project Manager,
and Contract Manager. In response to the recommendation, Aspen has added the
Education Division Vice President to the list of individuals responsible for reviewing ED
Pubs invoices.

OIG response – We recognize that each invoice’s supporting detail currently goes
through a review process within Aspen. We suggest that the Education Division Vice
President’s review include the finalized invoice, prepared by Aspen’s Accounting
Department, prior to the invoice being issued to ED.

FINDING NO. 2 –	 ASPEN D ID NOT M AINTAIN ADEQUATE S UPPORTING
                 DOCUMENTATION FOR ALL SCHEDULE B INVOICES R EVIEWED

We reviewed a total of 30 Contract Line Item Number (CLIN) charges, totaling
$166,241, from six randomly selected Schedule B invoices. Schedule B invoices cover
variable fixed per unit costs (based on the amount of units ordered and the cost per unit)
and shipping and expressage costs. Schedule B invoices contain a CLIN list that itemizes
costs for fulfilling mailing requests.

We identified $3,339 in unsupported costs on five of the six Schedule B invoices we
reviewed. 2 We found unsupported costs for four different CLINs, totaling $3,299, on the
invoice for June 1999. For the other four invoices, Aspen was able to provide orders
supporting a CLIN quantity of one less than the quantity for which ED was invoiced.
The total amount of unsupported costs for the remaining four invoices was $40.

Federal Acquisition Regulations (FAR) at § 4.703(a) require cont ractors to make
available records, which include books, documents, accounting procedures and
practices, and other data, regardless of type and regardless of whether such items
2
    See Attachment A for a detailed breakdown of the unsupported costs.
Mr. Eugene Brannock – Page 3	                                          ED-OIG/A03-C0021


are in written form, in the form of computer data, or any other form. These
records shall remain available for three years after the final contract payment, or,
for certain records, the period specified in FAR § 4.705 through 4.705-3.

Additionally, FAR § 4.705-1 "Financial and cost accounting records," requires
contractors to retain for four years after the final contract payment accounts
receivable invoices, adjustments to accounts, invoice registers, carrier freight
bills, shipping orders, and other documents which detail the material or services
billed on the related invoices.

According to Aspen’s ED Pubs Project Manager, the unsupported costs for the selected
CLINs were likely due to Aspen having either misplaced the supporting order
documentation from the Application Order System (AOS), sending diskettes from AOS
back to the customers, or overwriting the AOS diskettes. The AOS, which was shut
down in late 2000, was a phone-based system for colleges, high schools, and libraries to
order Federal Student Aid publications.

Aspen did not have adequate procedures in place, such as creating and saving an
electronic file listing all the order numbers that support an invoice’s CLIN quantities at
the time the invoice was prepared, to ensure that supporting documentation for the
quantities billed were maintained. Therefore, we could not verify that Aspen had
provided all the services that it billed to ED.

As a result of our finding, Aspen issued a record retention policy effective January 1,
2003. Aspen’s policy requires the retention and storage of duplicate copies of all
electronic records until three years after the date of the final contract payment. The new
policy also states that all records under contract, which includes vouchers and backup
documents, must be maintained in accordance with the retention period specified under
FAR § 4.7 Contractor Record Retention.

RECOMMENDATIONS :

We recommend that ED’s Chief Financ ial Officer require Aspen to:

2.1	   Provide adequate documentation for the $3,339 in unsupported costs, or refund
       the portion of costs that ED determines have not been adequately documented.

2.2	   Ensure that an electronic file that lists all the order numbers that support each
       CLIN quantity contained on an invoice at the time the invoice is prepared is
       created and saved as a part of its new record retention policy.

Aspen’s comments – Aspen refunded $3,339 of unsupported costs on the March 2003,
Schedule B invoice. In addition, Aspen noted that the physical and electronic data
storage procedures on the ED Pubs contract have been upgraded to meet or exceed the
requirements of Aspen’s Record Retention Policy.
Mr. Eugene Brannock – Page 4                                         ED-OIG/A03-C0021


OIG response – We noted that the unsupported costs of $3,339 were refunded to ED on
Aspen’s April 18, 2003, invoice number 31269-VR0138. In addition, during the audit
resolution process, ED CFO should determine if the revised electronic data storage
procedures fully address our recommendation.

                                      BACKGROUND

Aspen is an employee owned corporation that offers clients a range of outsourcing
services and business solutions. ED tasked Aspen to operate its ED Pubs Center, a state­
of-the-art, one-stop information and referral center consolidating dissemination functions
for all ED Principal Offices. ED Pub’s primary audience includes ED staff, teachers,
school administrators, local policy officials, community service providers, media,
parents, and youth.

ED’s contract with Aspen is an active fixed price contract. The contract period is March
13, 1998, through March 8, 2003. Services provided under the contract are billed
according to the type of cost, using Schedules A and B. Schedule A costs are fixed
monthly charges (e.g., equipment and warehouse space) that have been negotiated with
ED. Monthly costs billed on Schedule B include variable fixed per unit costs (based on
the amount of units ordered and the cost per unit) and shipping and expressage costs.
Performance based incentive fees are also billed on the Schedule B invoices.

                    AUDIT OBJECTIVE, SCOPE, AND M ETHODOLOGY

Our audit objective was to determine if the products and services provided and charged
by Aspen for the ED Pubs contract were in accordance with the terms of the contract and
applicable federal law and regulations. Our audit covered the period March 13, 1998,
through June 30, 2002.

To accomplish our audit objective, we interviewed officials from Aspen and ED Office of
the Chief Financial Officer (OCFO). We reviewed the ED OCFO Contracts and
Purchasing Operations’ administrative and program files, Quality Assurance Surveillance
Plan reports, federal laws, regulations, other contract related guidance, and related prior
audit reports. In addition, we reviewed Aspen’s contract file, invoices, accounting
records, and administrative and accounting policies and procedures.

Using simple random sampling, we selected costs for review from the universe of
Schedule A and Schedule B invoices totaling $31,332,624 that Aspen submitted to ED
during our audit period. We reviewed these costs to determine if they were adequately
supported and in accordance with the contract terms. During the audit period, Aspen
submitted 50 monthly Schedule A invoices, totaling $13,083,277. We reviewed the fixed
monthly costs on five randomly selected Schedule A invoices, which totaled $1,299,693.
Aspen submitted 51 monthly Schedule B invoices, totaling $18,249,347, during the audit
period. We randomly selected for review six of the Schedule B invoices, totaling
$2,196,663. From these six invoices, we reviewed costs totaling $808,836, consisting of
30 randomly selected CLIN costs (five from each invoice), totaling $166,241, and
Mr. Eugene Brannock – Page 5                                           ED-OIG/A03-C0021


shipping and expressage costs of $642,595. In selecting the random samples of Schedule
A and B invoices, we excluded from the universe 15 invoices, totaling $1,087,822,
consisting of incentive fees, wage determinations, credit memos, cancelled invoices, and
invoices not paid by ED.

We reviewed all eight Schedule B incentive fee payments, totaling $951,239, made to
Aspen from March 13, 1998, through June 30, 2002.

To achieve our audit objective, we relied, in part, on computer-processed data contained
in Aspen's ED Pubs order fulfillment system and Bulk Publications Ordering System.
We assessed the reliability of this data, including the relevant general controls, and found
them to be adequate.

We also conducted tests of the data. We compared computer-processed data to source
records. We randomly selected 22 CLINs and 43 orders from five Schedule B invoices.
We compared the CLINs’ order quantity to the count of order numbers from Aspen’s
order fulfillment systems. We reviewed the selected orders to verify that the systems
applied the correct CLIN and costs to the orders. Additionally, we compared source
records to computer-processed data. We reviewed four randomly selected order numbers
from the universe of 1,104,118 contained in the ED Pubs order fulfillment system to
determine if the system assigned the correct CLIN to each order. Based upon these tests
and assessments, we concluded that the data used was sufficiently reliable for the purpose
of this audit.

We conducted our audit fieldwork at Aspen’s offices in Rockville, Maryland and the ED
Pubs warehouse in Jessup, Maryland, from August 8, 2002, through October 8, 2002. An
exit conference was held on December 5, 2002. We conducted our audit in accordance
with generally accepted government auditing standards appropriate to the scope of the
audit work described above.

                       STATEMENT ON M ANAGEMENT CONTROLS

As a part of our review, we assessed the system of management controls, policies,
procedures, and practices applicable to the services provided and charged by Aspen for
the ED Pubs contract. Our assessment was performed to determine the level of control
risk for determining the nature, extent, and timing of our substantive tests to accomplish
the audit objective.

For the purpose of this audit, we assessed and classified the significant controls into the
following categories:

   •   Billing;
   •   Order Fulfillment; and
   •   Reporting.
Mr. Eugene Brannock - Page 6                                          ED-OIGIA03-C0021


Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the
management controls. However, our assessment disclosed management control
weaknesses relating to Aspen's billing and record retention processes. These weaknesses
include billing errors and unsupported costs. These weaknesses and their effects are fully
discussed in the Audit Results section of this report.

                               ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department of Education Officials.

If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Education
Department official, who will consider them before taking final Departmental action on
the audit:
                        Mr. Jack Martin
                        Chief Financial Officer
                        u.s. Department of Education
                        Federal Building No.6, Room 4E313
                        400 Maryland Avenue, SW
                        Washington, DC 20202

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued to
the Department~s grantees and contractors are made available, ifrequested, to members
of the press and general public to the extent that information contained therein is not
subject to exemptions in the Act.

If you have any questions, or wish to discuss the contents of this report, please contact
Teri L. Lewis, Assistant Regional Inspector General for Audit, or me at 215-656-6900.


                                      Sincerely,



                                      ~a~
                                      Regional Inspector General for Audit

Attachments
Mr. Eugene Brannock – Page 7                                      ED-OIG/A03-C0021



Electronic cc: Michael Tucker, Director of Contract Services, Aspen Systems
                Corporation
               Fred Green, Director of Management Services, ED OM
               Cynthia Bond-Butler, Audit Liaison Officer, ED OCFO CPO
               William Haubert, Assistant General Counsel, ED OGC
               William D. Hansen, Deputy Secretary
               Phil Maestri, Office of the Deputy Secretary
               John Danielson, Chief of Staff
               Eugene Hickok, Under Secretary
               John Gibbons, Director, Communications
               Clay Boothby, Acting AS, Legislation and Congressional Affairs
               Laurie M. Rich, AS, Intergovernmental and Interagency Affairs
               Carolyn Adams, ED OGC
               L’Wanda Rosemond, ED OIG General Operations Team
               Charles Miller, Post Audit Group, ED OCFO
               Headquarters and Regional Audit Managers, ED OIG
Attachment A                                           ED-OIG/A03-C0021




                      BREAKDOWN OF UNSUPPORTED COSTS


 Invoice                                    Invoiced     Unsupported
   No.             Period       CLIN        Quantity      Quantity
                                B3A          16,168          878
                                 B6B         14,920            6
  20227          June 1999
                                 B7B          1,036          526
                                 B7F           129            20

 023938        September 2000    B7J          28              1

 026483          July 2001       B7A          539             1

 027410         October 2001     B7B         1,396            1

 028840          May 2002        B5D         2,053            1
Attachment B

Aspen
SY~~!!!~ration'M_________________________________ ~e_ar,_rh B_ou_.~_J_a_m_,_R_oc_kv_i_lk_,_lW_V
                                                                22_7_7_Re
                                                                       __   __                    __
                                                                                                   20_8_5_0
                                                                                         www.asjJensys.com



   April 18, 2003


   U.S. Department of Education
   Office of Inspector General
   The Wanamaker Building
   100 Penn Square East, Suite 502
   Philadelphia, PA 19107

   Attention: Mr. Bernard Tadley, Regional Inspector General for Audit

   Subject: Education Publications Audit (Control No. ED-OIG/A03-C0021)
            Aspen Comments to ED Pubs (Contract No. ED-98-CO-0007) Draft Audit Report

   Dear Mr. Tadley:

   Aspen Systems Corporation has reviewed the Inspector General's draft audit report in connection
   with the examination of Aspen System Corporation's administration of the Education Publications
   contract (ED Pubs) for the audit period March 13, 1998 through June 30,2002. Aspen believes the
   report fairly represents the results of the IG audit review, however, the following comments are
   respectfully offered with regard to the IG recommendations for your further consideration:

          1.1 - All ED Pubs invoices currently go through a 3-tiered review process. This
               review includes the ED Pubs Management Analyst, Project Manager, and
               Contract Manager. In response to the recommendation from the Inspector
               General's Office, Aspen has added the Education Division Vice President to the
               list of individuals responsible for reviewing the ED Pubs invoice.

          2.1 - Aspen has refunded $3,339 of unsupported costs on the March 2003, Schedule
                B Invoice.

          2.2 - The physical and electronic data storage procedures on the ED Pubs
               contract have been upgraded to meet or exceed the requirements of Aspen's
               Record Retention Policy.

   Lastly, Aspen Systems would like to express its appreciation for the professionalism exhibited by
   both Mr. Nekrasz and Ms. Larsen in conducting the subject audit. Should there be any questions
   regarding the Aspen comments or a requirement for any additional information, please contact the
   undersigned on (301) 519-5285 at your earliest convenience.

   Sincerely,


  ~Michael D. Tucker
   Director, Contract Services



                                 An E1llployee . . Owned Campany
